   September 11, 2002




Human Capital
Civilian Personnel Processing by
Regional Service Centers That
Service Multiple DoD Agencies
(D-2002-144)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
CSU                 Customer Support Unit
DCPDS               Defense Civilian Personnel Data System
DFAS                Defense Finance and Accounting Service
DFAS-IN             Defense Finance and Accounting Service - Indianapolis
DLA                 Defense Logistics Agency
HRSC                Human Resource Services Center
OPF                 Official Personnel Folder
RSC                 Regional Service Center
WHS                 Washington Headquarters Services
          Office of the Inspector General of the Department of Defense
Report No. D2002-144                                                  September 11, 2002
   (Project No. D2001LF-0142)

              Civilian Personnel Processing by Regional Service
                Centers That Service Multiple DoD Agencies

                                 Executive Summary

Who Should Read This Report and Why? DoD civilian personnel policy makers,
personnel service center managers responsible for processing civilian personnel actions,
and many users of their services will be interested in this report. The report provides
lessons learned from Regional Service Centers.

Background. Regionalization of civilian personnel services is the consolidation of
personnel management functions that smaller, full-service personnel offices of the
Military Departments and DoD agencies formerly provided. The goals envisioned with
regionalization were an increase in efficiencies and a reduction of staffing through
consolidation and systems modernization. Through regionalization, the stand-alone,
full-service personnel offices of the DoD Components were replaced with Regional
Service Centers and Customer Support Units. As designed, the Regional Service Centers
would perform functions that could be centralized because they required only limited
interaction with managers or employees. Conversely, the Customer Support Units would
provide interaction with managers or employees face to face. There are 22 operational
Regional Service Centers or regional equivalents. Of the 22 that were operational, 16
serviced Military Departments, 5 serviced DoD agencies or organizations, and 1 serviced
the National Guard Bureau. This report focuses on the two Regional Service Centers that
service the most DoD agencies—the Defense Finance and Accounting Service Regional
Service Center and the Washington Headquarters Services (WHS) Human Resource
Services Center.

Results. The performance by the Defense Finance and Accounting Service Regional
Service Center and the WHS Human Resource Services Center was inconsistent when
processing personnel actions. The Defense Finance and Accounting Service Regional
Service Center adequately processed personnel actions and issued certification lists in a
timely manner for the agencies serviced. For example, based on Defense Finance and
Accounting Service productivity reports, 96.7 percent of the certification lists prepared in
the third quarter of FY 2001 were completed in less than 13 days. However, the WHS
Human Resource Services Center did not efficiently process civilian personnel actions.
Based on a review of a stratified random sample, we projected that during a 12-month
period ending November 2001, 8.3 percent of the official personnel folders that the WHS
Human Resource Services Center maintained had personnel actions with data entry or
filing errors, or actions that were not processed by the effective dates. In addition, we
projected that for recruitment and promotion actions, 63 percent of the certification lists
issued during a 12-month period were not issued within the 20-day goal established by
the WHS Human Resource Services Center. As a result, some civilian personnel
experienced pay and benefit errors that required correction, and agencies that WHS
services stated they had difficulty filling vacancies. Reorganizing the WHS Human
Resource Services Center so that the staffing and processing teams are better structured
to handle complex civilian personnel actions and position classifications, and establishing
management controls over the processing of the personnel actions, should result in more
accurate and timely processing. Further, establishing performance goals and
measurements and using the results of the performance measurements should help
identify areas requiring procedural changes and staff training needs. (See the Finding
section of this report for the detailed recommendations.)

Management Comments and Audit Response. The Acting Director, WHS concurred
in substance with the audit recommendations. However, he expressed concern with the
level of support for the report conclusions and questioned the overall balance of the
report. He identified five areas of concern—scope, methodology, customer opinions,
structure, and performance measures. We revised the report to address the concerns
regarding scope and performance measures. As for the other issues, he questioned our
need for a random sample, the inclusion of customer opinions, and the failure to address
the different functions that WHS and the Defense Finance and Accounting Service
perform. We do not agree with the concerns expressed by the Acting Director regarding
the use of a random sample or the inclusion of the customer opinions. Our use of a
random sample of personnel actions processed by the Human Resource Services Center
was necessary because the WHS reports did not contain sufficient information for a
thorough analysis of quality and timeliness. We also believe the inclusion of customer
opinions was relevant to show the difference in customer satisfaction for the two
Regional Service Centers. As for the differences in the functions performed, we believe
the report clearly outlines the differences in the two Regional Service Centers.

The comments from the Acting Director are partially responsive. We request additional
details on the actions planned regarding the recommendations for the revised team
structure and performance measurements. We request that the Acting Director, WHS
comment on the issues by October 15, 2002.

Management Actions. We commend the WHS Human Resource Services Center for
conducting report and programmatic reviews and soliciting customer input in an effort to
improve performance.




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objectives                                    3

Finding
     Civilian Personnel Processing             4

Appendixes
     A. Scope and Methodology                 21
          Management Control Program Review   22
     B. Prior Coverage                        24
     C. Glossary                              25
     D. Statistical Sampling Methodology      27
     E. Report Distribution                   32

Management Comments
     Washington Headquarters Services         33
     Civilian Personnel Management Service    37
Background
            Civilian Personnel Services Regionalization. Regionalization of civilian
            personnel services is the consolidation of personnel management functions that
            smaller, full-service personnel offices of the Military Departments and DoD
            agencies formerly provided. The goals envisioned with regionalization were an
            increase in efficiencies and a reduction of staffing through consolidation and
            modernization. Regionalization of personnel services within DoD was driven by
            Program Decision Memorandum, November 10, 1993; the memorandum directed
            DoD Components and agencies to consolidate civilian personnel operations into
            regionalized civilian personnel centers.

                    Regionalization Structure. As a result of regionalization, the stand-
            alone, full-service personnel offices of the DoD Components were replaced with
            Regional Service Centers (RSC) and Customer Support Units (CSU). The RSCs
            were expected to perform functions that could be centralized because they
            required limited interaction with managers or employees. The CSUs were
            expected to perform activities that required detailed knowledge of the customer
            base as well as provide face-to-face advice and assistance in specified functional
            areas. The workload previously performed by the stand-alone personnel offices
            was to be divided between the RSCs and the CSUs, with the RSC performing
            60 percent of the workload and the CSUs performing the remaining 40 percent.
            Functions that the RSC would perform included some staffing functions, final
            processing of personnel actions, managing and updating the personnel database,
            and maintaining official personnel folders (OPF). Functions that the CSU would
            perform included some staffing functions as well as employee and management
            relations. The functions that both the RSCs and CSUs would perform under
            regionalization were based on the needs of the organization serviced and are
            documented in memorandums of understanding between the RSCs and the CSUs.
            See Appendix C for a glossary of terms.

                   Regional Service Centers. The November 1993 Program Decision
            Memorandum had as a goal the establishment of 20 RSCs, 16 of which were
            designated for the Military Departments and 4 for Defense agencies. All RSCs
            have been established, including 19 RSCs and 3 regional equivalents.1 The
            19 RSCs include 16 that service the Military Departments (8 for the Army, 7 for
            the Navy, and 1 centralized center for the Air Force) and 3 that service Defense
            agencies. Defense agency RSCs include the Defense Finance and Accounting
            Service (DFAS), the Defense Logistics Agency (DLA), and the Washington
            Headquarters Services (WHS). The three regional equivalents include two DoD
            agencies—the Defense Commissary Agency and the DoD Education Activity—
            and one Military Department agency, the National Guard Bureau.




1
    Regional equivalents are large, consolidated personnel offices that are not officially recognized as RSCs.



                                                         1
                   While most RSCs provide civilian personnel processing services only to
           their own organization, three DoD RSCs provide services to multiple DoD
           agencies—the DFAS RSC, located in Indianapolis, Indiana (DFAS-IN); the DLA
           RSC,2 located in Columbus, Ohio; and the WHS Human Resource Services
           Center (HRSC), located in Alexandria, Virginia. We reviewed the two RSCs that
           service the most Defense agencies—the DFAS RSC and the WHS HRSC.

                   Staff-Servicing Ratios. To achieve the potential benefits of
           regionalization, DoD established a target for staff-servicing ratios. A
           staff-servicing ratio is the ratio of personnel specialists to the population it
           services. In 1994, the staff-servicing ratio was 1 personnel specialist for each
           60 civilian personnel. The November 1993 Program Decision Memorandum
           encouraged that RSCs and CSUs attain a ratio of 1 personnel specialist for each
           100 civilian personnel. Program Budget Decision number 711, December 5,
           1994, required the target ratio be met after FY 2001. A Director, Program
           Analysis and Evaluation review in September 1994 determined that a ratio of
           1 personnel specialist for each 100 civilian personnel would be an attainable goal
           with the efficiencies gained through regionalization and implementation of a fully
           functional Defense Civilian Personnel Data System (DCPDS). See Table 1 for
           the staff-servicing ratios for Agency RSCs and equivalents.

                         Table 1. Agency Regional Service Centers and Equivalents
                                       Personnel Serviced and Staff
                                                                                                           Staff4 to
                                                                   Population       RSC         CSU       Population
                           DoD Organization                         Serviced        Staff1      Staff2     Ratio

            Defense Logistics Agency                                  36,039         173         156       1:109
            Defense Finance and Accounting Service                    27,386         108         156       1:104
            DoD Education Activity                                    16,136         137          92        1:70
            Defense Commissary Agency                                 14,500         103          64        1:87
            Washington Headquarters Services3                         10,124          76          61        1:74
            1
              Includes only personnel specialists assigned to the RSC.
            2
              Includes total personnel specialists at all CSUs serviced by the RSC.
            3
            4WHS staff that perform both RSC and CSU functions are included under the RSC staff totals.
             Staff includes RSC and CSU personnel specialists.
            NOTE: WHS personnel serviced data was obtained from a November 28, 2001, WHS database. All other data
            were provided by the organization during contacts made between July 2001 and August 2002.




2
    The DLA RSC services civilian personnel in four agencies—DLA, the Defense Contract Management
    Agency, the Defense Human Resource Activity, and the Business Process Reengineering Group. Prior to
    March 2000, the Defense Contract Management Agency was part of DLA. The last 2 agencies are small
    with approximately 700 civilian employees.



                                                          2
     Personnel Actions. A personnel action is the process that is necessary to appoint,
     separate, or make other personnel changes. Although management initiates most
     personnel actions, individual employees can also make changes to certain
     personal benefits. Actions that involve hiring, conversions, and separations, as
     well as corrections or cancellations to those actions, are documented with an
     SF-50, “Notification of Personnel Action,” which is filed in an OPF. Permanent
     documentation by way of an SF-50 is not required for actions such as awards and
     bonuses that do not affect an employee’s basic pay.

             Management-Initiated Actions. Most civilian personnel actions are
     initiated by a manager, routed through a CSU for approval and verification, and
     sent to an RSC for final processing, including entry into the personnel database
     and filing in the OPF. Most personnel actions that management requests are
     initiated and forwarded on an SF-52, “Request for Personnel Action.” If the
     action affects an individual’s pay, updates to the database are automatically
     transmitted to the DFAS civilian payroll office. However, some actions, such as
     awards and adverse actions, use other documentation methods. Personnel actions
     such as realignments, reassignments, and awards involve only one or two steps by
     CSU and RSC personnel, whereas actions such as hiring new personnel and
     competitive promotions require numerous steps.

             Employee-Initiated Actions. Employees also initiate personnel actions.
     Those actions include changes to life insurance beneficiaries, health insurance
     carriers, and Thrift Savings Plan contributions. The employee submits the benefit
     change request directly to the servicing RSC, either electronically or in hardcopy.
     Although the employee-initiated actions update the personnel and civilian payroll
     databases, that action does not generate an SF-50.


Objectives
     Our original objective was to evaluate the effects of regionalization on delivery of
     civilian personnel management services within DoD organizations. We planned
     to assess whether the regional civilian personnel service centers were effectively
     and efficiently providing personnel management services to the DoD civilian
     workforce. Based on the comments from the organizations contacted,
     regionalization was generally working. However, most agencies provided
     services to their own employees. Therefore, we changed the focus to concentrate
     on the processing of civilian personnel actions by the two RSCs that serviced the
     most DoD agencies. We also reviewed the management control program as it
     applied to the revised objective. See Appendix A for a discussion of the scope
     and methodology and a review of the management control program. See
     Appendix B for prior coverage related to the objectives.




                                          3
           Civilian Personnel Processing
           The performance by the DFAS RSC and the WHS HRSC was inconsistent
           when processing personnel actions. The DFAS RSC adequately processed
           personnel actions and issued certification lists in a timely manner for the
           agencies it services. However, the WHS HRSC did not adequately
           process civilian personnel actions. Our sample identified that data entry or
           filing errors occurred when processing personnel actions, personnel
           actions were not always processed by the effective date, and certification
           lists were not always issued timely. Based on our review of a stratified
           random sample of 228 OPFs, we projected that 8.3 percent of the OPFs
           that the WHS HRSC maintained had processing errors during a 12-month
           period, ending November 2001. In addition, we projected that for
           recruitment and promotion actions, 63 percent of the certification lists
           issued during a 12-month period were not issued within the 20-day goal
           the WHS HRSC established. The WHS HRSC data entry errors and
           timeliness delays occurred because the team structure and processing
           procedures did not provide sufficient oversight or effective operations that
           were required to ensure accurate and timely data entry. Also, the WHS
           HRSC did not establish adequate performance goals and measurements for
           processing civilian personnel actions and did not track errors for trends or
           training purposes. As a result, some civilian personnel in agencies the
           WHS HRSC service experienced pay and benefit errors that required
           correction. In addition, agencies that the WHS HRSC service stated they
           had difficulty filling vacancies.


RSC Organization and Personnel Serviced
    Although the DFAS RSC and the WHS HRSC are organized to service multiple
    Defense agencies, the DFAS RSC provides only RSC services, while the WHS
    HRSC provides both RSC and CSU services depending on its customer. The
    DFAS RSC services more than twice the number of civilian personnel the WHS
    HRSC services. Although the DFAS RSC services more personnel, the WHS
    HRSC services more organizations.

    DFAS RSC. The DFAS personnel processing organization includes the DFAS
    RSC and the 15 CSUs it supports, as follows: Defense Contract Audit
    Agency (7), DFAS (6), Defense Information Systems Agency (1), and Defense
    Acquisition University (1). In addition, the DFAS CSUs service a few small
    Army and Navy elements. One of the CSUs that the DFAS RSC supports is the
    DFAS-IN CSU, which is collocated with the RSC at the Finance Center in
    Indianapolis. However, the two organizations are functionally separate. Each has
    its own internal structure and management team, and DFAS clearly distinguishes
    between RSC and CSU functions. The DFAS RSC performs final processing of
    personnel actions (including reductions in force and benefit transactions), updates
    the personnel database, and maintains the OPFs. The DFAS RSC also
    participates in recruiting and staffing through publishing vacancy announcements,
    evaluating applications, verifying applicant qualifications, preparing certification
    lists, and setting pay.


                                         4
The DFAS RSC has a staff of 135 employees of which 45 are personnel managers
or personnel specialists and 63 are personnel clerks or assistants. The remaining
27 employees provide administrative or technical support. Employee turnover at
the RSC has declined in recent years. From August 1999 through July 2000, the
DFAS RSC had a 26.8-percent turnover rate, with 37 personnel leaving the RSC
staff. From August 2000 through July 2001, the turnover rate dropped to
20.8 percent—30 personnel left the RSC.

Table 2 identifies the organizations and personnel the DFAS RSC serviced as of
August 2001.

         Table 2. Organizations and Personnel DFAS RSC Serviced
                            (as of August 2001)

               Organization                          Personnel Serviced
 Defense Finance and Accounting Service                     16,409
 Defense Information Systems Agency                          6,270
 Defense Contract Audit Agency                               4,093
 Defense Acquisition University                                382
 Army and Navy elements                                        232
  Total                                                     27,386

WHS HRSC. The WHS HRSC is part of the WHS Personnel and Security
Directorate. The Director, WHS HRSC also serves as the Deputy Director,
Personnel and Security Directorate. In addition to the HRSC, the Personnel and
Security Directorate has two other divisions that provide personnel-related
services—the Labor and Management Employee Relations Division and the
Equal Employment Opportunity Programs Division. The WHS HRSC, which
became fully operational by the fourth quarter of FY 1997, provides full-service
personnel support to more than 40 DoD organizations and agencies in the
National Capital Region and provides RSC services to 4 stand-alone CSUs.

The composition of the WHS HRSC customer base has evolved since
implementation of regionalization. Most of the organizations that the WHS
HRSC supports are smaller subordinate DoD organizations under the Office of
the Secretary of Defense. However, the WHS HRSC also supports several larger
agencies. The WHS HRSC was to initially provide personnel services to the
Defense Information Systems Agency, the Defense Investigative Service, the
Defense Strategic Weapons Agency, the Joint Staff, the On-Site Inspection
Agency, the Uniformed Services University of the Health Sciences, and the




                                    5
            WHS organization.3 Because DFAS offered the services at a lower cost,4 the
            Defense Information Systems Agency, with a civilian personnel base of
            approximately 6,300, withdrew from its agreement with WHS and contracted with
            DFAS for RSC services. Conversely, the Office of the Inspector General of the
            Department of Defense, with a civilian personnel base of approximately 1,300,
            joined WHS as a CSU because the Office of the Inspector General was too small
            to remain a stand-alone RSC.5 The Defense Commissary Agency had also
            negotiated with WHS for RSC services. However, because the November 1997
            Defense Reform Initiative directive mandated a one-third reduction in Office of
            the Secretary of Defense staffing levels, WHS, an Office of the Secretary of
            Defense activity, determined that it could not service the Defense Commissary
            Agency under the new staffing limitations.

            The WHS HRSC has a staff of 103 employees of which 63 are personnel
            managers or personnel specialists and 13 are personnel assistants. The remaining
            27 employees provide administrative or technical support. Employee turnover at
            the HRSC has remained stable in the last 2 years. In FY 2000, the WHS HRSC
            turnover rate was 21.3 percent, a staff change in 22 positions. The turnover rate
            for FY 2001 was 20.4 percent, a change of 21 positions.

            Table 3 identifies the organizations and personnel the WHS HRSC serviced as of
            November 2001.

                     Table 3. Organizations and Personnel WHS HRSC Serviced
                                       (as of November 2001)

                             Organization                                   Personnel Serviced
             WHS-Serviced Organizations1                                            4,671
             Defense Security Service                                               2,654
             Office of the Inspector General of the
              Department of Defense                                                 1,291
             Defense Threat Reduction Agency                                          790
             Uniformed Services University of the
              Health Sciences                                                         718
                 Total                                                             10,1242
             1
              Organizations receiving RSC and CSU services from WHS.
             2
              Total personnel serviced includes 253 personnel for which WHS provided personnel service but did
             not maintain the OPFs.




3
    The Defense Investigative Service was renamed the Defense Security Service. In addition, the Defense
    Strategic Weapons Agency and the On-Site Inspection Agency merged becoming the Defense Threat
    Reduction Agency.
4
    WHS HRSC staff stated that its costs were higher because it had higher overhead expenses.
5
    The Office of the Inspector General has subsequently decided to find an alternative source of support.



                                                          6
Processing of Personnel Actions
     The processing of personnel actions by the DFAS RSC and the WHS HRSC was
     not consistent. The DFAS RSC adequately processed personnel actions and
     issued certification lists in a timely manner. However, the WHS HRSC did not
     adequately process civilian personnel actions and did not consistently issue
     certification lists in a timely manner. We reviewed personnel actions in a
     stratified random sample of 228 OPFs that the WHS HRSC maintained. Based on
     the sample, we projected that 8.3 percent of OPFs contain personnel actions with
     data entry or filing errors, or actions that were not processed by the effective date
     during a 12-month period, ending November 2001. In addition, we projected
     63 percent of the certification lists that the WHS HRSC issued were not issued
     during a 12-month period within the established goal of 20 days. The CSUs that
     the WHS HRSC service also provided selected cases that had erroneous or
     untimely processed civilian personnel actions.


Customer Opinions and Performance Reviews
     Personnel officials of organizations the DFAS RSC serviced expressed a higher
     level of satisfaction than their counterparts at organizations the WHS HRSC
     serviced. Reviews of performance data for both DFAS and WHS supported the
     opinions of the personnel officials.

     Customer Opinions. To obtain the opinions of the RSC customers, we contacted
     the personnel officers in the DoD agencies that the RSC serviced but were not
     part of the RSC parent organization. The following summarizes their opinions.

             DFAS-Serviced Organizations. Personnel officials at three CSUs
     representing non-DFAS Defense organizations provided their opinions regarding
     the service they received from the DFAS RSC. The opinions were favorable.

                     Defense Acquisition University. The civilian personnel officer
     for the Defense Acquisition University stated that the organization was very
     satisfied with the service the DFAS RSC provided. The civilian personnel officer
     stated that although errors do occasionally occur, the DFAS RSC has been
     responsive to its concerns and has addressed issues quickly and efficiently.

                     Defense Contract Audit Agency. The personnel director said the
     DFAS RSC service was good, but not excellent. The personnel director stated
     that DFAS is “doing the best it can under the circumstances considering the
     limitations placed on it by DoD” and added that DoD had mandated
     regionalization without providing the products needed to accomplish the mandate.

                     Defense Information Systems Agency. The Deputy Director for
     Personnel and Security stated that the organization was very satisfied with the
     services it received from the DFAS RSC. The deputy director noted that an
     advantage of regionalization was that the agency was able to consolidate all of its
     OPFs in one location, whereas the records were previously maintained at
     numerous military personnel offices throughout the world.

                                           7
        WHS-Serviced Organizations. Personnel officials at the four CSUs and
the administrative officers for organizations that the WHS HRSC serviced
provided their opinions on the service received from the WHS HRSC. They
expressed concerns about the number of personnel processing errors, the length of
time to correct errors, and the length of time to fill vacant positions.

              CSU Personnel Officials. We met with personnel staff from all
four CSUs that the WHS HRSC services. The following information summarizes
CSU comments.

                       Defense Security Service. The Director for Human
Resources indicated that problems continually existed, with delays in correcting
mistakes in the processing of within-grade increases, awards, and promotions.
Delays also occurred in processing new hires—delays requiring special actions
that would ensure pay was received on time. The Defense Security Service had to
prioritize recruitment actions sent to the WHS HRSC because of delays in filling
positions. Further, the Defense Security Service began reclaiming all position
classifications in FY 2002 because of delays in filling positions. The director
stated that the agency’s Inspector General recommended that the Defense Security
Service locate another personnel service provider.

                         Defense Threat Reduction Agency. The civilian
personnel officer stated that the Defense Threat Reduction Agency had problems
with processing benefits for new hires as well as communicating with WHS
HRSC staff. The personnel officer stated that management complained about the
time it took to get certification lists from the WHS HRSC.

                          Office of the Inspector General of the Department of
Defense. An assistant personnel director commented that since regionalization
continuing personnel and pay problems that affect the agency and its employees
have occurred. For example, delays in advertising job openings and issuing
certification lists of eligible candidates have caused the agency delays in filling
positions. In addition, incorrect or late processing of within-grade increases or
conversions to career tenure caused problems with employee pay. Since changing
business processes in the summer of 2001, the WHS HRSC has resolved
problems more quickly. However, the problems still occur and the assistant
director has had frequent meetings and telephone conversations with the WHS
HRSC division chief to resolve the issues. The assistant director sent a report to
the WHS HRSC in October 2001 that outlined and prioritized outstanding
problems.

                       Uniformed Services University of the Health Sciences.
The Director for Human Resources and senior staff stated that during the middle
of 2001 the time required to process personnel actions had increased. Processing
pay-related actions such as promotions, step increases, and actions involving
retained pay or retained grade were of particular concern. Also, when pay-related
problems occurred, difficulties in correcting the pay actions in a timely manner
were encountered. Errors on certification lists were also of concern. The WHS
HRSC had issued certification lists that included ineligible personnel.




                                     8
                    WHS-Serviced Administrative Officers. We contacted the
            administrative officers for 43 organizations and activities for which WHS HRSC
            provides CSU and RSC services. Of the 43 organizations, 29 found the service
            acceptable; the remaining 14 were not satisfied with the service. Of the
            administrative officers contacted, 17 identified several problems with the
            processing of civilian personnel actions. The two most frequently mentioned
            problems concerned delays in completing classifications and issuing certification
            lists. The administrative officers also identified problems with timeliness and
            accuracy of data entry.

            Performance Reviews. Because no uniform requirement exists for RSCs to
            report performance statistics, comparable performance data were not available at
            the RSCs. Therefore, we relied on quarterly productivity reports the DFAS RSC
            provided and a stratified random sample of OPFs at the WHS HRSC to evaluate
            performance.

                    DFAS Performance Review. The RSC prepares quarterly productivity
            reports that are used to measure the performance of its five processing teams. We
            reviewed the reports for the second and third quarters of FY 2001. Based on
            those reports, the DFAS RSC met its established performance goals for
            processing personnel actions. The results contained in the reports supported the
            opinions of the DFAS RSC customers. The following summarizes the results of
            our review of the DFAS RSC reports.

                     •    Almost 97.7 percent (589 of 603) of the certification lists prepared in
                          the second quarter FY 2001 and 96.7 percent (618 of 639) of the
                          certification lists prepared in the third quarter FY 2001 were
                          completed in less than 13 days.

                     •    Approximately 98.5 percent (335 of 340) of the vacancy
                          announcements for the second quarter FY 2001 and 97.1 percent
                          (339 of 349) of the vacancy announcements for the third quarter
                          FY 2001 were produced in 3 days.

                     •    For the third quarter FY 2001, 12 errors that affected pay were
                          found.6, 7

                     •    For errors on vacancy announcements, based on a DFAS review of a
                          random sample of vacancy announcements, 93.6 percent (117 of
                          125) in the second quarter FY 2001 and 84.0 percent (110 of 131) in
                          the third quarter FY 2001 did not contain a major error.8

            Because the review of the DFAS-produced productivity reports supported the
            opinions of the CSU officials, no additional analysis of DFAS RSC performance
            was performed.
6
    Data on errors effecting pay for the second quarter 2001 were not available.
7
    The exact number of personnel actions processed that affected pay is not known. However, the DFAS
    RSC processes between 8,000 and 10,000 personnel actions each month.
8
    A major error is one that can affect an applicant’s decision to apply for the position or causes the applicant
    to overlook the vacancy announcement, for example an incorrect series, starting grade, or location.



                                                          9
                    WHS Performance Review. Based on a stratified random sample of
           OPFs, the performance of the WHS HRSC was not adequate. We reviewed a
           stratified random sample of 228 OPFs from 9,8719 civilian personnel in the WHS
           database. Our review examined personnel actions with an effective date during a
           12-month period from December 1, 2000, through November 30, 2001. In that
           review, we identified two performance issues—processing errors of individual
           personnel actions and timeliness delays for issuing certification lists. The
           processing errors included incorrect data the WHS HRSC entered that required
           correction, contained missing or incorrectly filed documentation as well as
           personnel actions that had an effective date at least 2 months prior to the date of
           approval or the date processed. The analysis of the random sample of OPFs
           supported the concerns that WHS HRSC customers expressed. See Appendix D
           for a detailed analysis of the sample results.

                            OPF Review. Based on our statistical sample, we projected that,
           for personnel actions processed during a 12-month period, 8.3 percent of the
           OPFs the WHS HRSC maintained had data entry errors, documentation errors, or
           actions processed after the effective date. The review disclosed that 23 OPFs had
           at least 1 error. Specifically, 22 OPFs had 1 error and 1 OPF had an error in all
           3 types.

                           Certification List Issuance Review. Based on our statistical
           sample, we projected that 63 percent of certification lists were not issued within
           20 days from close of the job announcement, which was the WHS HRSC goal for
           lists prepared between December 1, 2000, and November 30, 2001.

                           CSU Errors. Not all the errors identified during our review of the
           sample were the result of the WHS HRSC processing. In addition, to the errors
           identified above, other errors were the result of input from the CSU or
           administrative officers. Of the OPFs examined from the sample, nine had
           incorrect or missing data on the SF-52 that the CSU or administrative officer
           submitted. In addition, two of the SF-52s were submitted at least 3 months after
           the effective date of the action. The statistical projections for WHS HRSC
           processing do not include the CSU errors.


RSC Structure, Processing Procedures, Performance Goals,
  and Training
           The WHS HRSC data entry errors and timeliness delays occurred because the
           team structure and processing procedures did not provide sufficient oversight or
           effective operations that were required to ensure accurate and timely data entry.
           In addition, the WHS HRSC did not establish adequate performance goals and
           measurements for processing civilian personnel actions and did not track errors
           for trends or training purposes.


9
    Includes the personnel who were listed in the WHS database as of November 28, 2001. That figure
     excludes personnel whose OPFs were not maintained by the WHS HRSC.



                                                     10
RSC Structure and Processing Procedures. The team structures and processing
procedures for DFAS RSC provide greater oversight and more efficient service
than that of the WHS HRSC. The two organizations are similarly arranged in that
both have divisions for staffing and processing, benefits, records management,
and information systems support. As well, both organizations publish vacancy
announcements, prepare certification lists, perform the final processing of
personnel actions, and maintain OPFs. The staffing and processing teams of the
two organizations are, however, structured differently, which results in different
methods for processing personnel actions and position classifications.

       DFAS RSC

                Structure. The DFAS RSC is organized based on services
provided and the size of the organization supported. The primary unit for
processing civilian personnel actions is the Staffing and Processing Division,
which is made up of five teams—each team servicing specific organizations.
Each staffing and processing team has a team leader, personnel specialists, and
personnel assistants. Because most of the RSC functions involve clerical tasks or
data entry, the staff consists of more personnel assistant positions than personnel
management and specialists.

                Procedures for Processing Civilian Personnel Actions.
Personnel actions within the DFAS RSC are processed using a team approach so
actions cannot be processed entirely by one individual. A personnel action
forwarded to the RSC is typically processed as follows. The team leader assigns
the action to a personnel specialist and a personnel assistant. The personnel
specialist accomplishes the more complex portions of the action or those that
require research, such as ranking job applicants or verifying levels of veteran’s
preference, while the personnel assistant performs most of the data entry and
updates the personnel database. The team leader monitors the action for
timeliness and accuracy.

               Procedures for Processing Position Classifications. The DFAS
RSC does not handle position classifications. Instead, when implementing
regionalization, DFAS determined that position classifications would be done at
the CSU level.

       WHS HRSC

               Structure. The WHS HRSC team structure and internal
processing procedures did not ensure sufficient oversight was provided and
personnel actions were processed accurately and in a timely manner. The WHS
HRSC is a full-service personnel center providing both RSC and CSU services.
The primary unit for processing civilian personnel actions is the WHS HRSC
Personnel Services Directorate. The directorate includes three processing
divisions with each division divided into teams. Each team is responsible for
processing actions for specific organizations. Each team has a team leader and
personnel specialists. Some of the teams may also have personnel or
administrative assistants.




                                    11
               Procedures for Processing Civilian Personnel Actions.
Although the WHS HRSC processing units are identified as teams, they do not
use a team approach. Instead, complex personnel actions such as recruitments
and accessions may be completed entirely by one individual, without anyone
reviewing the action for accuracy or completeness. The processing of civilian
personnel actions begins when the team leader retrieves the SF-52 from an
electronic inbox and routes it to a personnel specialist. The personnel specialist is
then responsible for completing each step in the process, from initially
establishing the position through updating the modern DCPDS after the action is
completed. Because only the work of junior personnel specialists typically
receives routine supervisor review, the specialist may be the only person at the
WHS HRSC to handle a complex action that took several months to complete. At
the same time, the specialist processes other day-to-day actions, such as
realignments, reassignments, career ladder promotions, and awards. The
approach of having the personnel specialist handle all phases and types of
personnel actions requires that the individual be proficient in each aspect of all
types of personnel actions. Another concern RSC customers expressed was that
complex or time-consuming intermediate procedures, such as validating position
descriptions, conducting classification reviews, or preparing certification lists,
may be delayed in favor of immediate actions that affect pay.

                Procedures for Processing Position Classifications. Under the
WHS HRSC, both the HRSC and the stand-alone CSUs classify positions. Each
of the four stand-alone CSUs that the WHS HRSC service performs some or all of
their own position classifications, while the WHS HRSC classifies the positions
for the remaining DoD organizations and agencies. WHS HRSC has three
divisions that handle staffing and classification actions. Of the three, Division 2
is organized differently than the other divisions. In Division 1 and
Division 3, individual personnel specialists handle every aspect of staffing and
classification actions. However, Division 2 has two classification specialists
assigned to the division. The classification specialists handle all of the
classification reviews for the division. The classification specialists review
incoming SF-52s and determine if a classification is required before the action is
assigned to a personnel specialist. The Division 2 structure with assigned
classification specialists allows processing specialists to concentrate on less
time-consuming activities.

                The separation of classification responsibilities may be a factor in
customer satisfaction as stated by the 43 DoD agencies contacted who receive
both RSC and CSU services. Customers of Divisions 1 and 3, the two divisions
that did not have separate classification specialists assigned, expressed less
satisfaction than did customers of Division 2. Of the customers that Division 2
services, 86 percent expressed satisfaction with the services. In contrast,
59 percent of the organizations Division 1 services and 20 percent of those
Division 3 services expressed satisfaction with their service.

                Having classification specialists has not solved all the problems
Division 2 has encountered while handling position classification processing.
Although only 1 of the 21 administrative officers at DoD organizations
Division 2 services had a negative comment about classification processing, the
Defense Security Service, the only external CSU the division services, found that
the division did not process its actions in a timely manner. As a result, the


                                     12
Defense Security Service reclaimed classification processing from the WHS
HRSC. Two classification specialists may not have been sufficient to handle the
requirements for the nearly 4,000 civilian personnel the division supports.

We believe that the processing of civilian personnel actions would be handled
more efficiently if the teams within the Divisions were structured so that the
processing of the complex elements for personnel actions is handled by senior
personnel specialists. Further, complex personnel actions should be reviewed
before they are finalized. We also believe that the processing of classification
actions would best be accomplished at the CSU level. For those organizations
that receive both CSU and RSC support, position classifications should be
handled by a separate team or a sub-unit within the team dedicated to that
functional responsibility.

Performance Goals and Training. The DFAS RSC established performance
goals and measurements and used those metrics to both improve performance and
identify training needs. The WHS HRSC did not establish adequate performance
goals and measurements for processing civilian personnel actions or track errors
that could be used to evaluate trends and design and implement training.

       DFAS Performance Goals and Training

              Performance Goals. The DFAS RSC has team-level performance
goals and measurements that are used as an incentive to improve organizational
performance. DFAS team goals include:

               •   90 percent of vacancy announcements are open within 3 days
                   of a request,

               •   90 percent of certification lists are issued within 13 days, and

               •   no more than 3 processing errors that affect pay are committed
                   by a team each month.

                The DFAS RSC uses goals as incentives for improving the
performance of personnel. The RSC implemented an incentive program based on
the performance goals and measures. The team goals for quality and timeliness
are measured each quarter. When the team meets the goal, each team member
receives a cash award. Further, because DFAS tracks the progress of actions, they
are able to identify needed improvements to each process. The DFAS teams meet
the performance goals so consistently that the DFAS RSC management is
considering toughening the requirements.

                Training. To improve employee performance, the DFAS RSC
implemented training programs. The RSC has a two-track training program.
Track 1 consists of a series of classes that all of the new personnel must attend.
Track 2 consists of a series of refresher classes for personnel who are not
performing up to standards. Personnel may voluntarily attend the Track 2 training
classes or their supervisors may mandate attendance. Monitoring the performance
measures enables the RSC to track the types of errors that occur and then design
training programs to mitigate future errors.



                                     13
            WHS Performance Goals and Training

                    Performance Goals. While the WHS HRSC has performance
     goals that require that personnel actions are processed within specific time frames
     and personnel specialists have quality goals in individual performance plans,
     those goals are not performance measures used to track errors or evaluate trends.
     Further, the measures are not used to identify training needs or to develop training
     programs.

                     Although the WHS HRSC established timeliness goals, the goals
     were useful only for statistical purposes and no corrective actions were taken as a
     result of the data. For example, the WHS HRSC had a goal to issue certification
     lists within 15 to 20 days after the vacancy announcement closed. However, as
     demonstrated by the results of the random sample, frequently the goal was not
     met.

                      The WHS HRSC also had a goal to complete position
     classifications within 30 to 35 days. According to the DFAS-IN CSU Director,
     that goal is in sharp contrast to the time the DFAS CSUs were required to
     complete classifications. The director stated that classifications should not take
     more than a few days. Even complex classifications that require a new position
     description should not take more than 3 days. According to DFAS-IN CSU
     performance reports, classifications are usually completed within 3 days.

                    The WHS HRSC does not have performance measurements for
     quality. Although personnel specialists in the WHS HRSC have quality goals in
     performance plans, the goals are not incorporated into nor are they based on
     organization goals. The chiefs for two of the three processing divisions at the
     WHS HRSC stated that their goal was 100-percent accuracy. However, both of
     those chiefs admitted that they have no formal measures to determine if the goal is
     met.

                      Training. The WHS HRSC did not use its performance measures
     to track errors and evaluate trends that could be used to identify training needs.
     Although the WHS HRSC developed a standard training plan for personnel
     specialists, the plan simply provides for training entry-level employees and
     requires personnel specialists to master more complex procedures while
     progressing up the career ladder. However, the WHS HRSC has no method for
     tracking errors that could be used to evaluate trends that can ultimately determine
     what additional training may be needed to mitigate or eliminate recurring errors.


Effect on Civilian Personnel and Agencies that the WHS
  HRSC Services
     As a result of data errors and untimely processing by the WHS HRSC, some
     civilian personnel experienced pay and benefit errors that required correction. In
     addition, staff from agencies that the WHS HRSC services stated that they had




                                          14
     difficulty filling vacancies. Further, the untimely processing caused some
     agencies the WHS HRSC services to reclaim some functions that the WHS HRSC
     had performed.

     Effects on Civilian Personnel. The data input errors caused some civilian
     personnel to experience pay and benefit errors that required correction. During a
     12-month period, data entry errors occurred in 17 of the OPFs selected for review
     of personnel actions that WHS HRSC processed. While not all of the data errors
     directly affected pay and benefits, many did. Analysis of the types of errors
     indicates that of those with data entry errors, 10 had a possible or actual effect on
     pay or benefits. Incorrect pay grades and within-grade increases obviously affect
     pay. Likewise, errors in Federal Employees Life Insurance codes, service
     computation dates, and duty stations affect pay and benefits as well. Although
     many of the errors were corrected within two or three pay periods, some errors
     took much longer to correct. For example, one employee remained at the
     incorrect pay step for about 15 months. In addition to the random sample, we also
     examined some personnel errors that employees or CSUs reported. One
     employee was erroneously terminated and paid accrued leave because an
     extension of a term appointment was not processed on time.

     Effects on Serviced Agencies. The personnel directors at the CSUs that the
     WHS HRSC services reported that incorrect or untimely processing of personnel
     actions caused agency problems. Each of the four CSUs commented on the
     excessive time to get certification lists from the WHS HRSC. The agency
     personnel officials reported that managers complain about the time to fill
     positions. One agency reported that it was not able to meet end-strength goals in
     FY 2000, in part because of WHS processing.

     CSU Actions. The CSUs are taking actions to mitigate the delays. Two CSUs
     that had some classifications that the WHS HRSC conducted are now reclaiming
     all classifications. The Defense Threat Reduction Agency contracts for
     classifications on a case-by-case basis, and the Defense Security Service added a
     classification specialist position to its staff. Both the Defense Threat Reduction
     Agency and the Defense Security Service are augmenting WHS HRSC staff with
     either their own or contract personnel—the Defense Threat Reduction Agency has
     two personnel assistants and the Defense Security Service has a contract
     employee, each of whom work at the WHS HRSC several days each week. The
     Defense Security Service has also moved the hiring of entry-level special agents,
     personnel security specialists, and industrial security specialists from the WHS
     HRSC to the Office of Personnel Management. Personnel from the Office of the
     Inspector General of the Department of Defense have negotiated to change
     regional personnel service providers.


WHS Quality Control Initiatives
     The WHS HRSC acknowledged a need to improve service and identified three
     initiatives for its operational improvement plan—reorganization, reviewing
     reports, and programmatic reviews. In May 2001, senior WHS HRSC staff
     briefed the three initiatives to the agencies and organizations for which it provides


                                          15
    civilian personnel services. However, implementation was delayed until FY 2002
    to prepare for deployment of modern DCPDS. As part of the first initiative,
    reorganization, the WHS HRSC decentralized processing of personnel actions so
    that the staff who worked and coded the actions would be responsible for
    updating the system. The identified goals for reorganization were designed to
    increase accountability, decrease the number of “handoffs,” and ultimately reduce
    data entry errors and processing time. We do not believe that “less handoffs” is
    the solution to processing errors as discussed in “RSC Structure, Processing
    Procedures, Performance Goals, and Training” section of the report. The second
    initiative, reviewing reports, required the WHS HRSC staff to conduct a more
    systematic review and followup on the reports the personnel and payroll systems
    produced that identified rejected transactions and reconciliation actions. The
    intent for the review of the reports was to identify and correct data errors and help
    identify problem areas. A review of the reports has started and WHS HRSC has
    identified some systemic issues where additional training was needed. The last
    initiative, programmatic reviews, required random audits on 10 percent of
    selected actions, such as career ladder promotions. Through June 2002, one
    programmatic review has been completed. That review examined last equivalent
    increases and due dates for within-grade increases. The findings were briefed in
    November 2001 to the agencies that the WHS HRSC services. We commend
    WHS for conducting the report and programmatic reviews and soliciting customer
    input in an effort to improve its performance.


Actions Needed to Improve RSC Performance
    The Acting Director, WHS needs to take several actions to improve WHS HRSC
    performance in processing personnel actions. The Acting Director should:

           •   reorganize and establish management controls so that the processing of
               civilian personnel actions is completed accurately and timely and
               adequate review occurs before the personnel database is updated;

           •   transfer the position classification function to the stand-alone CSUs or
               ensure that sufficient classification specialists are available to each
               HRSC division to handle position classifications for the remaining
               organizations or agencies the WHS HRSC services;

           •   establish, monitor, and enforce performance goals and measurements
               for timeliness and quality; and

           •   develop and implement training plans that incorporate an analysis of
               the results of the performance goals and measurements.

    Reorganizing the WHS HRSC and establishing management controls will allow
    WHS to staff its organization based on need and experience. For example,
    reorganizing will allow the WHS HRSC to have management and employee
    relations specialists and staffing specialists designated to perform the
    time-consuming and more technical functions as well as handle functions that
    require consultation with customers. Other personnel assistants and personnel
    specialists could then handle other elements of personnel processing such as

                                         16
    operating Resumix and preparing certification lists. Finally, properly supervised
    junior specialists could handle the final processing of actions. A supervisor
    would verify that essential data elements are entered accurately. In addition,
    requiring an organization with sufficient resources handle the position
    classification function, either a stand-alone CSU or a properly staffed HRSC,
    would decrease the time required for position classification.

    Establishing performance goals will not only help identify performance problems
    where they occur but will help in the development of training programs that will
    correct the performance problems. Verifying key data, such as employee social
    security numbers, dates of birth, and names, as well as pay and benefit
    information, before a major action is processed should reduce the number of
    corrections required because an erroneous transaction is processed.

    As an alternative, WHS could explore the possibility of merging its operations
    with the Defense Commissary Agency Human Resource Operations Division as
    originally intended in 1998. The Defense Commissary Agency operates the
    equivalent of an RSC in Alexandria, Virginia. The RSC has a staff of
    111 employees, including 103 personnel specialists, and provides RSC services
    for approximately 14,500 civilian personnel in the continental United States,
    Hawaii, Puerto Rico, Alaska, and Guam. The assets from the WHS HRSC and
    the Defense Commissary Agency Human Resource Operations Division could be
    combined to establish a National Capital Region RSC. The current CSUs would
    remain intact and a new CSU would be established to support the more than
    40 organizations and activities the WHS HRSC services. The combined Defense
    Commissary Agency and WHS RSC would service about 25,000 civilian
    personnel, which is less than the civilian personnel either DFAS or DLA services.


Management Comments on the Finding and Audit Response
    WHS Comments. The Acting Director, WHS expressed concern with the level
    of support for report conclusions and questioned the overall balance of the report.
    He outlined five major concerns. The first issue was the scope of the audit. He
    stated that the draft report did not include DLA, which also processes civilian
    personnel actions for multiple DoD agencies and that we did not contact any of
    the administrative officers of the organizations that DFAS services. The second
    issue concerns the methodology we used in comparing performance. The Acting
    Director stated that WHS provided performance reports that had comparable
    average cycle time and that a random sample was not needed. The Acting
    Director identified our inclusion of customer opinions as the third issue. He
    stated that the customer opinions were presented without empirical substantiation
    and adequate contextual perspective. He stated that we failed to address that the
    problems were the result of an unexpected volume of actions for the Defense
    Security Service as well as untrained staff the Office of the Inspector General of
    the Department of Defense provided. Further, the Acting Director reported that
    the agencies did not experience staffing shortages because the agencies were at a
    99-percent execution rate for FY 2001. The fourth issue the Acting Director
    raised concerns the differences between the structure and function of the two
    RSCs, stating that the WHS HRSC performs different functions than the DFAS
    RSC. In addition, he stated that WHS provides a full range of advisory services

                                        17
regarding position classifications that were not taken into consideration. The
Acting Director further stated that the WHS HRSC has reorganized to separate
functions so senior specialists handle more complex processes. The final issue
concerns performance goals. The Acting Director stated that WHS did not revise
its performance goal for certification issuance timeliness. In addition, based on
customer feedback, they have reorganized and the current performance data
reflects reduced cycle time.

Audit Response. Regarding the first issue, we agree that DLA supports multiple
agencies and was not included in the scope of the draft report. The DLA RSC
services DLA, the Defense Contract Management Activity, the Defense Human
Resource Activity, and the Business Process Reengineering Group under the
Under Secretary of Defense (Acquisition, Technology, and Logistics). Until
March 2000, the Defense Contract Management Activity was part of DLA.
Further, we did not learn that DLA serviced the last two groups (which include
approximately 700 of the 36,000 civilian employees the RSC services) until after
the draft report was released. Nevertheless, we looked at the two RSCs that
serviced the most DoD agencies. Further, we did not contact administrative
officers of the organizations that DFAS services because those individuals work
directly with CSUs, unlike the administrative officers of the organizations that
WHS services who work directly with the HRSC.

Regarding the second issue, although WHS provided cycle time reports, we do
not agree that the data was comparable. The DFAS reports contained the number
of actions that were completed and the number of actions that met the standard.
However, the WHS data included only average number of days to complete the
actions. We could not determine the number of personnel actions that met the
standard. The random sample allowed us to obtain specific results on processing
errors and timeliness. We did not review a sample of DFAS civilian personnel
actions because DFAS customers did not indicate problems existed with data
entry quality and timeliness.

The third issue concerns the customer opinions included in the report and our
statement that the lack of timely support by WHS may have resulted in staffing
shortages at the agencies serviced by the WHS HRSC. The report includes
opinions of the customers for both the WHS HRSC and the DFAS RSC. The
DFAS RSC customers are clearly more satisfied than those the WHS HRSC
services. We contacted the customers to determine if an indication of a problem
was present. The statistical sample results clearly support the customer opinions.
As for our conclusion that the organizations may have experienced staffing
shortages, a high overall execution rate does not connote that delays in
completing the hiring action did not occur. Key positions may have remained
unfilled for extended periods because of the time delays in obtaining certification
lists. Nonetheless, we deleted the reference that agencies “may have experienced
staffing shortages.”

Regarding the fourth issue that concerns the differences in the organizational
structure between the DFAS RSC and the WHS HRSC, we believe that we clearly
stated the differences. We acknowledged that the WHS HRSC provides both
RSC and CSU services and that the DFAS CSUs perform all the position
classifications. DFAS is organized in a way that more specialists are at the CSUs
than at the RSC and with that structure DFAS maintains a high level of customer


                                    18
    satisfaction. In addition, despite the comment regarding the differences in
    organizational structure, WHS agreed that the classification function should be
    performed at the CSU. Regarding the last issue, which deals with performance
    goals, our review of the statistical sample of certifications was based on a more
    liberal 25-day standard one CSU reported. We revised our results to reflect the
    20-day standard, as shown on the HRSC cycle time report.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Acting Director, Washington Headquarters
    Services:

          1. Reorganize the Human Resource Services Center and establish
    management controls so that civilian personnel actions are completed more
    accurately and timely by:

                   a. Structuring the staffing and processing teams so that the
    complex elements of the personnel actions are handled by senior personnel
    specialists and key data in the personnel actions are reviewed before they are
    finalized and the personnel database is updated.

    WHS Comments. WHS concurred with the recommendation to have the more
    complex personnel aspects separated from other civilian personnel processing.
    They indicated that the change was accomplished in their 2001 reorganization.

    Audit Response. The comments from WHS were partially responsive. The
    response stated that senior personnel would handle the more complex functions
    associated with civilian personnel processing, such as Resumix, reductions in
    force, and other complex processes. The response failed, however, to address
    who will handle the more complex aspects of processing individual civilian
    personnel actions such as veterans preference, and the response failed to confirm
    whether data would be reviewed prior to updating the database. We request that
    WHS provide additional details regarding the team structure for handling the
    complex functions of civilian personnel processing. Further, we request that
    WHS indicate concurrence or nonconcurrence with the recommendation to review
    all data prior to database update as well as provide a plan and implementation date
    for accomplishing the action.

                  b. Separating the position classification function from the
    processing of other civilian personnel actions.

                           (1) For stand-alone Customer Support Units, the
    position classification function should be transferred from the Human
    Resource Service Center to the Customer Support Units.




                                         19
                     (2) For the remaining organizations and agencies that
Human Resource Services Center services, the position classification function
should be handled by a separate unit or sub-unit within a team dedicated to
that functional responsibility.

WHS Comments. WHS concurred with the recommendation.

Civilian Personnel Management Service Comments. Although not required to
comment, the Director, Civilian Personnel Management Service provided
comments in response to the draft report. The director did not concur with
Recommendation 1.b.(1) that the position classification function should be
transferred to the stand-alone CSUs. He indicated that based on the design of
regionalization and the division of workload, the function should remain in the
RSCs.

Audit Response. No change was made to the recommendation. The
regionalization configuration models allowed for position classification to be
handled by either the RSC or the CSU. DFAS is operating successfully with the
CSUs handling all position classifications.

       2. Implement performance goals that measure the timeliness and the
quality of processing personnel actions.

WHS Comments. While WHS did not specifically concur with the
recommendation, the Acting Director stated that WHS uses performance
measurements and trend analyses. The Acting Director stated that the results of
the performance measures regarding a processing unit was one of the factors that
drove the reorganization in FY 2001.

Civilian Personnel Management Service Comments. Although not required to
comment, the Director, Civilian Personnel Management Service agreed with the
recommendation to implement performance goals.

Audit Response. The WHS comments were partially responsive. While WHS
has standards that measure processing time for some personnel actions, WHS
does not have standards for all key personnel actions and does not have any
standards that measure the quality of data entry. We request that WHS provide
additional information that demonstrates it has both quality and timeliness
performance measures for processing all civilian personnel actions.

      3. Use the results of the performance measurements to institute
procedural changes and develop training programs for staff personnel.

WHS Comments. WHS concurred with the recommendation.




                                   20
Appendix A. Scope and Methodology
   Work Performed. To better understand the regionalization process within DoD,
   we met with personnel from the agency responsible for regionalization and
   modern DCPDS—the Civilian Personnel Management Service within the Under
   Secretary of Defense for Personnel and Readiness. At the Civilian Personnel
   Management Service, we interviewed the director and other managers responsible
   for planning and implementing regionalization of personnel services. To evaluate
   the effects of regionalization on delivery of personnel services, we met or
   contacted personnel from the five RSCs and regional equivalents that service the
   non-Military Department DoD agencies. We conducted in-depth site visits at the
   WHS HRSC, DFAS RSC, four CSUs that the WHS HRSC services, and two
   CSUs that DFAS services. At the organizations visited, we discussed and
   reviewed staffing, organization, budgets, population serviced, workflow
   processes, training, and management controls. We contacted the administrative
   officers of the DoD agencies and organizations that the WHS HRSC services for
   their observations on the delivery of personnel services by the WHS HRSC. To
   obtain the opinion of the Defense organizations that DFAS RSC services, we
   contacted personnel management at the non-DFAS CSUs.

   Most of the information provided during the site visits was testimonial. We
   examined DFAS-provided performance reports that were evaluated in relation to
   the opinions of its serviced organizations. Because the serviced organizations
   expressed dissatisfaction with WHS HRSC civilian personnel processing, we
   reviewed personnel actions in a stratified random sample of 228 OPFs that the
   WHS HRSC maintained to estimate the nature and extent of errors that occurred
   at the WHS HRSC. We also reviewed selected personnel actions the WHS HRSC
   services that the CSUs and DoD agencies identified. To determine the timeliness
   for issuing certification lists by the WHS HRSC, we reviewed the hiring actions
   identified during our review of the OPFs. The personnel actions reviewed were
   processed from December 2000 through November 2001. We reviewed
   documentation and reports dated November 1993 through August 2002 that were
   relevant to civilian personnel processing as well as to implementing
   regionalization within the DoD.

   Audit Dates and Standards. We performed this audit from July 2001 through
   August 2002 in accordance with generally accepted government auditing
   standards. Limitations to the scope and auditor independence are explained in the
   following paragraphs.

   Limitations to Scope. This audit was limited to a review of the two RSCs that
   service the most DoD agencies and activities. We did not evaluate the DLA RSC,
   the RSCs that the Military Departments operated, or DoD agencies that service
   only their own employees. In addition, we did not conduct an analysis of the staff
   sizes or staff distribution at the RSCs and CSUs for the DoD organizations,
   validate the civilian personnel population and staffing data the DoD organizations
   and activities provided, or validate the DFAS-produced productivity reports.




                                       21
    Limitation to Auditor Independence. The Office of the Inspector General of
    the Department of Defense is a customer of the WHS HRSC, but is changing to
    the DFAS RSC.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Strategic Human Capital Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the WHS HRSC database to obtain the universe of civilian personnel the WHS
    HRSC serviced. As of November 28, 2001, the WHS database contained
    10,124 civilian personnel. We used the WHS HRSC database to identify a
    stratified random sample of 240 OPFs for review. Of the 240 OPFs, we
    determined that the WHS HRSC was responsible for 228 and the remaining
    12 were either retired to the National Records Center or maintained by an
    organization that the WHS HRSC services. The 12 records that were not included
    in the sample were part of 253 civilian personnel for whom the WHS HRSC was
    not responsible for the OPFs. The 253 records were removed from the universe,
    leaving 9,871 records for the stratified random sample. We could account for all
    the OPFs selected for the sample. For the purpose of sample selection, we did not
    find errors in the WHS HRSC database that would preclude the use of the
    computer-processed data to meet the objectives or that would change conclusions
    in this report.

    Use of Technical Assistance. Personnel in the Quantitative Methods Division,
    Audit Followup and Technical Support Directorate, Office of the Assistant
    Inspector General for Auditing provided technical support for this report.
    Operations research analysts designed a sampling plan and selected a stratified
    random sample of civilian personnel the WHS HRSC serviced. We reviewed the
    OPFs of those personnel to evaluate the accuracy and timeliness of processing
    personnel actions. The operations research analysts projected the results of our
    review. See Appendix D for details of the statistical sampling methodology.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the WHS HRSC processing of civilian
    personnel actions. Specifically, we reviewed the workflow process at the WHS
    HRSC. We reviewed management’s self-evaluations applicable to those controls.



                                        22
Adequacy of Management Controls. We identified a material management
control weakness in the WHS HRSC processing of civilian personnel
transactions, as defined by DoD Instruction 5010.40. WHS HRSC management
controls over the processing of personnel transactions were not adequate to ensure
that the processing of transactions was timely or reasonably error free.
Recommendations 1., 2., and 3., if implemented, will strengthen controls over
personnel transaction processing at WHS HRSC and provide more accurate and
timely transactions. A copy of the report will be provided to the senior official
responsible for management controls for WHS.

Adequacy of Management’s Self-Evaluation. WHS HRSC identified personnel
services as part of an assessable unit. However, in its evaluation, WHS officials
did not identify the specific material management control weakness the audit
identified because the WHS evaluation did not cover timeliness and accuracy of
processing personnel actions.




                                    23
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office, the Inspector General of
     the Department of Defense (IG DoD), and the Army Audit Agency have issued
     seven reports concerning civilian personnel regionalization and implementation of
     modern DCPDS. Unrestricted General Accounting Office reports can be accessed
     over the Internet at http://www.gao.gov. Unrestricted IG DoD reports can be
     accessed at http://www.dodig.osd.mil/audit/reports. Unrestricted Army Audit
     Agency reports can be accessed at http://www.hqda.army.mil/aaaweb.


General Accounting Office
     General Accounting Office Report No. AIMD-99-20, “Defense IRM:
     Alternatives Should Be Considered in Developing the New Civilian Personnel
     System,” January 27, 1999


Inspector General of the Department of Defense
     IG DoD Report No. D-2001-137, “Certification of the Defense Civilian Personnel
     Data System,” June 7, 2001

     IG DoD Report No. 98-143, “Information Assurance for the Defense Civilian
     Personnel Data System – Washington Headquarters Services,” June 3, 1998


Army
     Army Audit Agency Report No. AA 02-109, “Civilian Personnel
     Regionalization,” January 10, 2002

     Army Audit Agency Report No. AA 01-108, “Civilian Personnel Regionalization:
     Army National Capital Region, Fort Belvoir, Virginia,” February 12, 2001

     Army Audit Agency Report No. AA 00-226, “Civilian Personnel Regionalization:
     North Central Region, Rock Island, Illinois,” May 1, 2000

     Army Audit Agency Report No. AA 00-211, “Civilian Personnel Regionalization:
     Pacific Region, Fort Richardson, Alaska,” April 11, 2000




                                        24
Appendix C. Glossary
   Accession - A personnel action that results in the addition of an employee to the
   staff of an agency. An accession is also referred to as an appointment.

   Certification - The process by which the Office of Personnel Management or the
   agency office with delegated authority submits a list of persons eligible for
   employment consideration (hiring and promotions) to appointing officers.

   Classification (or Position Classification) - The evaluation of duties and
   responsibilities, whereby a title, occupation series, and grade are assigned, and the
   position is placed under an Office of Personnel Management position
   classification plan.

   Conversion - The changing of an employee from one type of appointment to
   another in the same agency with either no break in service or with a break of
   3 days or less.

   Effective Date - The date a personnel action takes place and the employee’s
   official assignment begins.

   Employee Relations - Work that involves providing advice and assistance to
   employees and managers, program administration, and case management in
   matters relating to conduct, performance, attendance, and dispute resolution.

   Entry on Duty Date - The date on which a person completes the necessary
   paperwork and is sworn in as an employee.

   Noncompetitive Action - A promotion, demotion, reassignment, transfer,
   reinstatement, or an appointment based on prior service.

   Official Personnel Folder - The official repository of records and reports for
   personnel actions during an employee’s civilian Government service and
   documents and papers that are required in connection with such actions.

   Pay Rate Determinant - A designation of any special factors that help determine
   an employee’s rate of basic pay or adjusted basic pay.

   Personnel Action - The process necessary to appoint, separate, or make other
   personnel changes.

   Position Description - The statement of duties and responsibilities of work
   assigned to a civilian employee.

   Promotion - A nature of action used to document personnel actions that change
   an employee to a position at a higher grade level within the same job
   classification system and pay schedule or to a position with a higher rate of basic
   pay in a different job classification system and pay schedule.




                                        25
Realignment - The movement of an employee and position when a transfer of a
function or organization changes, the employee stays within the same agency, and
no change is made to the employee’s position, grade, and pay.

Recruitment - Actions required for examining applications and selecting and
placing employees.

Reduction in Force - Separation of an employee from a competitive level
required by the agency as a result of lack of work or funds, abolishment of the
position or agency, or cuts in personnel authorizations.

Resumix - An automated employment referral system that replaces manual
review of applications with technology that matches qualifying applicants with
vacancies.

Separation - When an employee retires or leaves a Federal agency to accept
employment elsewhere, whether a non-Federal Government position, on duty
with the uniformed services, or under a reduction in force.

Special Employment Program - Programs DoD offers that accommodate special
recruitment needs, such as student employment programs, presidential
management interns, programs for people with disabilities, and veteran’s
programs.

Staffing - The process used for recruiting Government civilian personnel. The
process involves identifying sources of job applicants and candidates, selecting
the appropriate method for identifying job candidates, and ranking the applicants
by analyzing experience, training, and quality factors.

SF-50 (Notification of Personnel Action) - A form personnel or an
administrative office completes and uses to notify an employee and the payroll
office of a personnel action. A copy of the SF-50 is filed in the employee’s OPF.

SF-52 (Request for Personnel Action) - A form operating officials use to request
personnel actions and to attain internal agency approvals of requests for personnel
action.

Within-Grade Increase - An increase in an employee’s rate of basic pay by
advancement from one step to the next after meeting requirements for length of
service and performance.




                                    26
Appendix D. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to
    determine whether civilian personnel actions that the WHS HRSC processed were
    completed correctly and in a timely manner. The statistical sampling plan was
    also used to estimate the number of OPFs the WHS HRSC maintained that
    contained errors.

    Universe Represented. The universe consisted of all civilian personnel in the
    WHS HRSC database as of November 28, 2001, for whom the WHS HRSC
    maintained an OPF. The database initially included a total of 10,124 civilian
    personnel. We determined that OPFs for 252 of 718 employees of the Uniformed
    Services University of the Health Sciences were maintained at the University and
    not the WHS HRSC. In addition, we identified one OPF that had been transferred
    to the National Records Center. Those 253 civilian personnel were removed from
    the database. As a result, the universe used for the sample contained
    9,871 civilian personnel.

    Sampling Design. A two-step stratified sampling design was used. In the first
    step, the universe was separated into two groups—WHS and non-WHS. The
    WHS group consisted of 4,670 civilian personnel representing WHS-serviced
    organizations, including the Joint Staff. The non-WHS group consisted of 5,201
    civilian personnel that represented the Defense Security Service, the Defense
    Threat Reduction Agency, the Office of the Inspector General of the Department
    of Defense, and the Uniformed Services University of the Health Sciences. In the
    second step, each group was separated into three strata based on the length of
    Federal Government service—less than 1 year, 1 year to 5 years, and greater than
    5 years. A random sample was selected from each stratum. A total of 228 OPFs
    were selected—119 from the WHS group and 109 from the non-WHS group.
    Table D-1 identifies the sample selection.




                                       27
                            Table D-1. Sample Selection

           Group                    Strata           Population   Sample Size
     WHS                  less than 1 year                321            29
                          1 to 5 years                    428            30
                          greater than 5 years          3,921            60
        Subtotal                                        4,670          119
     Non-WHS              less than 1 year                300           23
                          1 to 5 years                    479           27
                          greater than 5 years          4,422           59
        Subtotal                                        5,201          109
      Total                                             9,871          228



Sampling Results
    We identified two performance issues during our review of personnel actions—
    processing errors and delays when completing individual personnel actions filed
    in OPFs and timeliness delays when issuing certification lists.

    Processing of Individual Personnel Actions In OPFs

          Types of OPF Errors. During our review of the personnel actions in the
    228 OPFs, we identified 3 types of individual processing problems in the OPFs:

           •   data entry errors,

           •   incorrectly filed or missing documentation, and

           •   actions processed after the effective date.

                    Data Entry Errors. Of the OPFs reviewed, 17 had data entry
    errors attributed to WHS HRSC input that later required correction. Table D-2
    outlines the data entry errors by type and frequency.




                                             28
                       Table D-2. Data Entry Errors

                 Type of Error                            Frequency
 Annuitant indicator                                          1
 Employee name                                                2
 Legal authority code                                         1
 Life insurance code                                          1
 Pay determinant                                              1
 Pay grade                                                    1
 Pay plan                                                     2
 Pay step                                                     2
 Social Security Number                                       1
 Service computation date                                     2
 Tenure                                                       1
 Veterans preference                                          1
 Within-grade increase                                        1
  Total                                                      17


                Documentation Errors. Of the OPFs reviewed, six contained
documents that either did not belong in the folder or were missing documents
from the folder that were required. The type and number of documentation errors
are as follows.

          •   One OPF was missing a required SF-50.

          •   Two OPFs had SF-50s that belonged in other employees’ folders.

          •   One OPF had two SF-52s that belonged in another employee’s
              folder.

          •   One OPF had an improperly filed certificate of investigation.

          •   One OPF had a Thrift Savings Plan form for another employee.

                Actions Processed After Effective Date. Of the OPFs reviewed,
two contained personnel actions that were processed at least 2 months after the
effective date of the action although the WHS HRSC had all the necessary
documentation to process the action in a timely manner. The two actions were a
realignment and a change in work schedule.

        Sample Results of OPF Review. Table D-3 identifies the statistical
projections of OPFs that contained a data entry or documentation error, or an
action processed after the effective date.




                                    29
              Table D-3. Official Personnel Folders with Errors
             From December 1, 2000, through November 30, 2001
                       (95-Percent Confidence Level)

                       Lower Bound          Point Estimate        Upper Bound
Error rate                   3.3%                 8.3%                 13.2%

OPFs with errors             326                  816                 1,306


         We are 95-percent confident that between 326 and 1,306 OPFs contained
at least 1 error during a 12-month period, with a point estimate of 816. We
calculated that the percent of OPFs with errors was between 3.3 percent and
13.2 percent, with a point estimate of 8.3 percent during a 12-month period.

Certification List Processing

        Timeliness of Issuance of Certification Lists. From the 228 OPFs, we
identified 37 recruitment or promotion actions that required the WHS HRSC to
issue the certification list—16 for WHS organizations and 21 for non-WHS
organizations. We statistically projected across all strata the number of
recruitment and promotion actions. Additionally, using a combined ratio
methodology, we statistically projected across all strata the number of recruitment
or promotion actions that contained timeliness delays.

         Number of Recruitment or Promotion Actions. Table D-4 identifies
the statistical projections of recruitment or promotion actions requiring a
certification list.

Table D-4. Recruitment or Promotion Actions Requiring a Certification List
           From December 1, 2000, through November 30, 2001
                     (95-Percent Confidence Level)

                        Lower Bound         Point Estimate        Upper Bound

Rate                            5%                10.3%                15.6%

Number of Actions            496                 1,017                1,538

        We are 95-percent confident that the proportion of OPFs with recruitment
or promotion actions is between 5 percent and 15.6 percent, with a point estimate
of 10.3 percent, and that the number of OPFs with hiring or promotion actions is
between 496 and 1,538, with a point estimate of 1,017.

       Sample Results of Certification List Issuance Review. During a
12-month period, the certification list was not issued within 20 days, the WHS
HRSC goal, for 22 recruitment or promotion actions—7 for WHS organizations
and 15 for non-WHS organizations.


                                     30
        Table D-5 identifies the statistical projections of recruitment or promotion
actions for which the WHS HRSC did not issue a certification list within 20 days
during a 12-month period.

             Table D-5. Certification Issuance Timeliness Delays
             From December 1, 2000, through November 30, 2001
                       (95-Percent Confidence Level)

                         Lower Bound         Point Estimate         Upper Bound
Error rate                   57.1%                 63%                  68.8%

Timeliness delays             581                  640                   700


        We are 95-percent confident that the proportion of certification lists not
issued within 20 days during a 12-month period was between 57.1 percent and
68.8 percent with a point estimate of 63 percent. We are 95-percent confident that
the number of timeliness delays for certification list issuances during a 12-month
period is between 581 and 700, with a point estimate of 640.




                                     31
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Force Management Policy)
  Director, Civilian Personnel Management Service

Other Defense Organizations
Inspector General of the Department of Defense
   Director, Administration and Information Management
Director, Defense Commissary Agency
   Director, Human Resources
Director, Defense Finance and Accounting Service
   Director, Regional Service Center
Director, Defense Security Service
Director, Defense Threat Reduction Agency
Acting Director, Washington Headquarters Services
   Director for Personnel and Security
President, Uniformed Services University of the Health Sciences

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          32
Washington Headquarters Services
Comments                           Final Report
                                    Reference




                                   Revised




                 33
Final Report
 Reference




    Revised




               34
35
Final Report
 Reference




     Revised




               36
Civilian Personnel Management
Service Comments




                37
38
